:

APPENDICES

APPENDIX (i)

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 1 of 12

Court of Jfefrtral Claims
No. 19-1241C
(Filed: September 23, 2019)
t************************************

*

JEAN DUFORT BAPTICHON,

*

Plaintiff,
v.

*

THE UNITED STATES,

Pro Se Plaintiff; Sua Sponte Dismissal;
Medal for Merit; 10 U.S.C. § 1122;
Subject-Matter Jurisdiction; MoneyMandating Source of Law; Frivolous
Claims; Statute of limitations; 28 U.S.C.
§ 2501; Failure to State a Claim; In Forma
Pauperis

*

Defendant.

*********************>|t:i<!|,l('*!|C*!|l**l|>**)|t!|t)|l

Jean Dufort Baptichon. Freeport, NY, pro se.
Albert S,_Jarossi, United States Department of Justice, Washington, DC, for defendant.
OPINION AND ORDER
SWEENEY, Chief Judge
In this case, pro se plaintiff Jean Dufort Baptichon alleges tliat he is entitled to receive the
sell-assessed monetary value of a Medal of Merit issued to him by President George H.W. Bush.
Mr. Baptichon further alleges that the federal government has engaged in unfair and deceptive
acts and practices and intentional infliction of emotional distress by forcing him to determine the
value of the Medal of Merit on his own. Accordingly, Mr. Baptichon seeks $20 billion in
damages.
As explained below, Mr. Baptichon’s complaint is untimely, fails to identify a money­
mandating source of law, sounds in tort, and! advances claims that are wholly frivolous and lack
merit. In any event, Mr. Baptichon has previously filed a complaint in this court setting forth
many of the same allegations and arguments1; that complaint ultimately resulted in two written
decisions denying his claims for relief. Therefore, without awaiting a response from defendant,
the court dismisses Mr. Baptichon1 s-complaint for lack of subject-matter jurisdiction.

7018 2290 0000 5183 8112

*

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 2 of 12

I. BACKGROUND
A. Statutory and Regulatory Context
Congress created a decoration known as the “Medal for Merit” in 1942. Act of My 20,
1942, eh. 508, § 2(2), 56 Stat. 662, 663 (codified as amended at 10 U.S.C. § 1122 (2018)). In
doing so, Congress empowered the President;to award the Medal for Merit to civilians who had
“distinguished themselves by exceptionally meritorious conduct in the performance of
outstanding services” in prosecuting World War II. Id. Congress specified that the President’s
decision to award the Medal for Merit was discretionary and would be carried out “under such
rules and regulations as [tire President] shall prescribe.” Id.
Pursuant to that authority, three executive orders were issued pertaining to the Medal for
Merit.1 In Executive Order 9857A, which superseded the previous executive order on the
subject, President Harry S. Truman reconstituted the board that President Franklin D. Roosevelt
had created to “receive.and consider proposals for tire award of the decoration of the Medal for
Merit and submit to the President the recommendations of the Board with respect thereto,” 12
Fed, Reg. 3583 (May 27,1947). President Truman also set a June 30, 1947 deadline for
submitting proposals for award to the board.
B. Factual Background
Mr. Baptichon identifies himself as “a native Haitian and a naturalized United States
citizen.” Compl. f 1. I-Ie was born sometime between September 1955 and August 1956,
inclusive. See Compl. Ex, B at 21 (referring ito himself as a “19 year-old" as of August 30,
1975). In 1979, Ml*. Baptichon registered as a Republican with the local election board and
joined Ronald Reagan’s presidential campaign as a grassroots volunteer. Id, at 23*24. In
November 1984, shortly after his re-election, President Reagan allegedly “presented to [Mr.
Baptichon] a Four-Star Medal of Merit that he signed as President Reagan.” Id. at 27. At the
time, Mr. Baptichon was a regular monthly contributor to the Reagan-Bush campaign. Compl.

t6.
Mr. Baptichon further contends that in 1991, President George H.W. Bush presented him
“his second Presidential Medal of Merit.” Id ^ 7. Based on his belief that “the ‘Medal of Merit’
[had] political, diplomatic, symbolic and monetary values pertaining to it,” Mr. Baptichon then
purportedly attempted to retrieve his 1984 medal from the safe-deposit box, but lie was unable to
do so because the bank “was no longer in operation.” Id He avers that the Federal Bureau of
Investigation did not respond to his request for assistance regarding his medal supposedly having
been “embezzled.” .Id fh 7-8.. Also in 1991, Mr. Baptichon attended a party fundraiser, “costing
him over $1,000,” at which President George H.W. Bush, Vice President Dan Quayle, and
members of Congress “distributed some memorabilia.” Id. *110.
1 Exec. Order No. 9857A: Medal for Merit, 12 Fed. Reg. 3583 (May 27,1947); Exec.
Order 9331: Medal for Merit, 8 Fed Reg. 5423 (Apr. 19, 1943); Exec. Order 9286: Medal for
Merit, 7 Fed. Reg. 10899 (Dec. 24,1942).
-2-

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 3 of 12

On June 4,2004, Mr. Baptichon received a letter signed by President George W. Bush.
Id f 16. See generally Compl. Ex. A. That letter was a solicitation, paid for by a political
fundraising committee, asking Mr. Baptichori to attend a July 21, 2004 dinner in Washington,
DC with President George W, Bush, First Lady Laura Bush, and “the entire Republican Party
Leadership ... to celebrate [President George W. Bush’s] first term in office.” M. at 1. In the
letter, President George W. Bush stated that “much work remains to be done and none of what
we have accomplished to date would have been possible without you, Your steadfast support has
made the Republican Party America’s majority party.” Id The then-President listed some of the
accomplishments that he planned to celebrate at tire July 21, 2004 dinner, and remarked that “all
of us ... owe you a deep debt of gratitude for your support. And all of us want to recognize and
honor the commitment and sacrifices you’ve made for our Party and our nation.” Id. at 1-2. Mr.
Baptichon does not allege that he attended the dinner.
On October 24,2004, Mr. Baptichon travelled to Washington, DC seeking an
unscheduled meeting with Secretary of State Colin Powell. Compl. Ex. B at 71. He took only an
envelope that “contained the Senatorial Commission issued to [him] by die Republican
leadership, a presidential identification card with [his] name on it and the subject ‘Presidential
Medal of Merit.”’ Mi at 71-72. Mr. Baptichon emphasizes that “the goal and objective of [his]
unannounced visit to the Department of State... was to duly cash in on this ‘Medal of Merit’
from the Congress of the United States.” Id. .at 81. However, Secretary Powell was out of the
country at the time; the ranking State Department official with whom Mr. Baptichon conversed
upon his arrival indicated that he could not accept the medal on Secretary Powell’s behalf, and
suggested that Mr. Baptichon make an appointment. Id. at 79. The record does not reflect, nor
does Mr. Baptichon allege, that he ever did so.
C. Procedural History
On September 1L, 2008, Mr, Baptichon filed suit in this court seeking $20 billion “for the
‘fixed sum’ of the Medal.” Bantichon v. United States. 85 Fed. Cl. 754, 755, afPd, 342 F. App’x
617 (Fed. Cir. 2009) (unpublished.per curiam decision). In that complaint, he alleged that “the
acceptance of the Medal has caused him ‘moral turpitude,”’ the medal was awarded to him in
violation of the United States Constitution and ethics guidelines, and that “the President hhs
acjaiowledged a ‘diep.^wSajaegpf.gH!ffi(iSie)jn alettg:
Id, In granting a contested motion to dismiss, the court explained:
Mr. Baptichon’s Complaint fails to reference a statute or regulationthat provides a substantive source of Taw that'mandates
compensation; instead, Mr. BaptiChon’ s Complaint alleges that he
is entitled to compensation for the Medal. This Medal was
established by the Act of July 20,1942. Furthermore, the
procedures for awarding the Medal are contained in Executive
Order No. 9857A. Neither the Act..ofMy2C),, 1942, nor Executive
Order No, 98[5]7A,'nor any other statute or regulation establishes
a source of law that mandates compensation. /Accordingly, it is

-3-

A

Case 1:19-W-Q1241-MMS Document 6 Filed 09/23/19 Page 4 of 12

clear to the Court that Mr, Baptichon’s Complaint, even if liberally
construed, is not within this Court’s jurisdiction.
Id. (citations omitted).
After unsuccessfully seeking reconsideration of the dismissal of his complaint, Mr.
Baptichon appealed the decision to the United States Court of Appeals for the Federal Circuit
(“Federal Circuit”). The Federal Circuit remarked that “[t]he trial court correctly enforced its
jurisdictional limits” and affirmed the dismissal, Baptichon v. United States. 342 F. App’x at
617. In doing so, the Federal Circuit observed:
Mr, Baptichon explains that “[t]he President of the United
States made an offer of the medal of merit at issue to the
plaintiff/appellant who in turn accepted the offer and relied in good
faith to Ms detriment by ... financially committing himself to
politically and socially support the defendant....“ Mr.
Baptichon’s reference to 10 U.S.C. § 1122 and Executive Order
9857A ... seems to refer to tire Medal for Merit. ... [Mr.]
Baptichon Iras cited no statute or regulation that provides for any
monetary award attached to the medal or any additional rights
conferred when it is granted. Nor has this court found such a
statute or regulation.

Id.
On August 19,2019, Mr. Baptichon initiated the instant lawsuit. Mr. Baptichon advances
three causes of action in his complaint. First, Mr. Baptichon asserts that President George W.
Bush admitted to owing him a debt. Conrpl. *jf 16. Second, he maintains that the federal
government “intentionally and recklessly inflicted severe emotional and mental distress and
caused moral turpitude” upon him by issuing the Medal of Merit and “by making said admission
of such ‘deep debt’ to [him] without specifically stating the monetary value in said admission,
leaving it to [him] to assess or determine [the value] on his own.” Id. f 17. He contends that his
emotional distress is exacerbated by the economic conditions m his native Haiti because those
amditrons are caused fyjhejfeder^government./id f *18. TMrd, in the alternative to his first
two counts, Mr. Baptichon theorizes that f6 U.S.C. § 1122 and Executive Order 9857A are
unconstitutional and'violate ethics guidelines because the Medal of Merit “was notandis not
necessary to achieve a compelling government purpose,” nor was its issuance “substantially
related to an important government objective,” but rather to induce him to make.political
contributions.2 Id. % 19-20. f

2 Mr. Baptichon refers to “Executive Order No. 9 8 67A” in his complaint. See Compl.
%% 5,19. The discrepancy appears to reflect a typographical error. Thus, the court treats any
reference by Mr. Baptichon to Executive Order 9867A as a reference to Executive Order 9857A.

-4-

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 5 of 12

II. LEGAL STANDARDS
A. Subject-Matter Jurisdiction
Whether the court possesses jurisdiction to decide the merits of a case is a “threshold
matter.” Steel Co. v. Citizens for a Better Bnv’t. 523 U.S. 83,94-95 (1998). Subject-matter
jurisdiction cannot be waived or forfeited because it “involves a court’s power to hear a case.”
Atbaiigh v. Y & H Corn.. 546 U.S. 500, 514 (2006) (quoting United States v, Cotton. 535 U.S.
625, 630 (2002)). “Without jurisdiction tire court cannot proceed at all in any cause. Jurisdiction
is power to declare tire law, and when it ceases to exist, the only function remaining to tire court
is that of announcing the fact and dismissing the cause.” Ex parte McCardle, 74 U.S. (7 Wall)
506, 514 (1868). Therefore, it is “an inflexible matter tliat must be considered before proceeding
to evaluate the merits of a case.” Matthews v. United States. 72 Fed. Cl. 274, 278 (2006); accord
K-Con Bldg. Svs„ Inc, y, United States. 778 F,3d 1000,1004-05 (Fed. Cir. 20.15).
Either party, or the court sua sponte. may challenge the court’s subject-matter jurisdiction
at any time. Arbaugh. 546 U.S. at 506; see also Jeun v. United States. 128 Fed. CI. 203,209-10
(2016) (collecting cases). The court must examine all pertinent issues relevant to subject-matter
jurisdiction because “[cjourts have an independent obligation to determine whether subjectmatter jurisdiction exists, even when no party challenges it.” Hertz Com, v. Friend. 559 U.S. 77,
94 (2010); accord Gonzalez v. Thaler. 565 U.S. 134, 141 (2012) (“When a requirement goes to
subject-matter jurisdiction, courts are obligated to consider sua sponte issues that the parties have
disclaimed or have not presented.").
In determining whether subject-matter jurisdiction exists, the court generally “must
accept as true all undisputed facts asserted in the plaintiff’s complaint and draw all reasonable
inferences in favor of the plaintiff.” Trusted Integration. Inc, v. United States. 659 F.3d 1159,
1163 (Fed. Cir. 2011). Pro se pleadings are “held to less stringent standards than formal
pleadings drafted by lawyers” and are “to be liberally construed.” Erickson v. Pardus. 551 U.S.
89, 94 (2007) (per curiam) (quoting Estelle v. Gamble. 429 U.S. 97,106 (1976)). However, the
“leniency afforded to a t>ro se litigant with respect to mere formalities does not relieve the burden
to meet jurisdictional requirements.” Minehan v. United States. 75 Fed. Cl. 249,253 (2007);
accord Henke v. United States. 60 F,3d 795,799 (Fed. Cir. 1995) (“The fact that [the plaintiff]
acted pro se in the drafting of his complaint may explain its ambiguities, but it does not excuse
its failures, if such there be.”). In other words, a pro se plaintiff is not excused front the burden
of proving, by a preponderance of evidence, that the court possesses jurisdiction. See McNutt v,
Gen. Motors Acceptance Corp.. 298 U.S. 178,179 (1936): Banks v. United States. 741 F.3d
1268, 1277 (Fed. Cir. 2014) (citing Reynolds v. Army & Air Force Exch. Serv.. 846 F.2d 746,
748 (Fed. Cir. 1988)).
Furthermore, the court lias no subject-matter jurisdiction over frivolous claims. Moden y,_
United States. 404 F.3d 1335, 1340-41 (Fed.; Cir. 2005). For example, there is no subject-matter
jurisdiction over claims that are “so insubstantial, implausible, foreclosed by prior decisions ...,
or otherwise completely devoid of merit as not to involve a federal controversy.” Id. at 1341
(quoting Steel. 523 U.S. at 893: see also Denton v. Hernandez. 504 U.S. 25, 33 (1992) (“[A]
-5-

•V.

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 6 of 12

finding of factual frivolousncss is appropriate when the facts alleged rise to the level of die
irrational or the wholly incredible.,, .”).
If the court finds that it lacks subject-matter jurisdiction over a claim, Rule 12(h)(3) of
the Rules of the United States Court of Federal Claims (“RCFC”) requires the court to dismiss
that claim.
B. The Tucker Act
The ability of the United States Court of Federal Claims (“Court of Federal Claims”) to
entertain suits against the United States is limited. “The United States, as sovereign, is immune
from suit save as it consents to be sued.” United States v. Sherwood, 312 U.S. 584, 586 (1941).
The waiver of immunity “may not be inferred, but must be unequivocally expressed.” United
States v. White Mountain Apache Tribe. 537 U.S. 465,472 (2003). The Tucker Act, the
principal statute governing the jurisdiction of this court, waives sovereign immunity for claims
against the United States, not sounding in tort, that are founded upon the United States
Constitution, a federal statute or regulation, or an express or implied contract with the United
States. 28 U.S.C. § 1491(a)(1) (2012); White Mountain. 537 U.S. at 472. However, the Tucker
Act is merely a jurisdictional statute and “does not create any substantive right enforceable
against the United States for money damages.” United States v. Testan. 424 U.S. 392, 298
(1976). Instead, the substantive right must appear in another source of law, such as a “moneymandating constitutional provision, statute or regulation that has been violated, or an express or
implied contract with the United States.” Loveladies Harbor. Inc, v. United States. 27 F.3d 1545,
1554 (Fed. Cir. 1994) (en banc). “[T]he absence of a money-mandating source [is] fatal to the
court’s jurisdiction under the Tucker Act.” Fisher v. United States. 402 F.3d 1167, 1173 (Fed.
Cir. 2005).
The test of whether a .statute or regulation is money-mandating is whether it “can fairly
be interpreted as mandating compensation for damages sustained as a result of a breach of the
duties [it] impose[s].” United States v. Mitchell. 463 U.S. 206,219 (1983). In other words, “a
statute creating a Tucker Act right [must] be reasonably amenable to the reading that it mandates
aright of recovery in damages.” White Mountain. 537 U.S. at 473.

j -

Further, to fall within the court’s jurisdiction, any claim against the United States filed in
the Court of Federal Claims must be “filed within six years after such claim first accrues.” 28
U.S.C. § 2501, A cause of action accrues “when all the events which fix the government’s
alleged liability have occurred and the plaintiff was or should have been aware of their
existence.” San Carlos Anache Tribe v. United States. 639F.3d 1346, 1350 (Fed. Cir. 2011)
(quoting Hopland Band of Porno Indians v. United States. 855 F.2d 1573,1577 (Fed. Cir. 1988)).
The limitations period set forth in 28 U.S.C. § 2501 is an “absolute” limit on the ability of the
Court of Federal Claims to exercise jurisdiction and reach the merits of a claim. JohnR. Sand A
Gravel Co. v. United States. 552 U.S. 130,133-35 (2008),

-6-

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 7 of 12

I

I

In addition to considering subject-matter jurisdiction sua sponte, the court may dismiss a
complaint sua sponte for failure to state a claim upon which relief can be granted if “the
pleadings sufficiently evince a basis for that action,” Anaheim Gardens v. United States, 444
F,3d 1309,1315 (Fed. Cir. 2006); see, e.e.. Sun v. United States, 130 Fed. Cl. 569,569
(“[Pursuant to its inherent authority, the Court sua sponte dismisses [the plaintiffs] complaint
for failure to state a claim.”), aff d. 668 F. App’x 888 (Fed. Cir. 2016) (unpublished decision).
Indeed, Congress has specified that courts “shall dismiss the case at any time” upon a
determination that the action “fails to state a claim upon which relief may be granted.” 28
U.S.C, § 1915(e)(2)(B)(ii) (emphasis added). A sua sponte .dismissal for .failure to.state a claim,
does not violate due process when the claim is “untenable,..as,.a.imjatte^
proceedings”'couldenaHe the plaintiff “to prqyejuiy.s.et-Q£.facts entitiiflg.l]iin.to^t»vail.onJiis
claim for relief.” Constant v. United States. 929 F.2d 654,657 (Fed. Cir. 1991). In such
circumstances, “any expenditure of governmental resources in preparing a defense to [the]
complaint would be a waste of public funds.” Sun. 130 Fed. Cl. at 569.
III. ANALYSIS
In his complaint, Mr. Baptichon alleges that he is owed $20 billion for the value of his
Medal of Merit and that the federal government has engaged in intentional infliction of
emotional distress, caused moral turpitude, failed to act on his request for law enforcement
assistance (which the court construes as negligence), and committed fraud in the inducement of
his political contributions. The Court of Federal Claims lacks subject-matter jurisdiction to
consider any of these claims.
A. Mr, Baptichon Did Not Receive the Medal for Merit Described in 10 U.S.C. § 1122
As an initial matter, the court observes that Mr. Baptjqhonjappsars to. conflate the “Medal
for Merit” awarded by the President pursuant to the Act of July 20, 1942, 10 U.S.C. § 1122, and
Executive Order 9857A with the “Medal of Merit” awards that he allegedly received from
Presidents Reagan and George W. Bush. (Emphases added). The Medal for Merit is a
decoration that Congress authorized the President to award to civilians who performed
outstanding service to the Allied cause in World War II.” Baptichon. 342 F. App x at 342.
World War II ended, and die Medal for Merit board stopped receiving proposals for the award,
prior to Mr. Baptichon’s birth,. Therefore, Mr. Baptichon could not have received the Medal for
Merit. Th.e..Medal of Merit |s an entirely .dificrcnt award altogether

-7-

Case l:19-cv‘01241-MMS Document 6 Filed 09/23/19 Page 8 of 12

B. The Medal for. Merit Statutes and Regulations Are Not Money-Mandating
Mi. Baptiehon argues that the Act of July 20,1942 (in particular, section 3), 10 U.S.C.
§ 3122, and Executive Order 9857A are each “a source of law that mandates compensation
appurtenant to" his medal. Compl. ^ 5. According to Mr. Baptiehon, Congress and the President
“have authorized [him] to assess the value of this Medal of Merit” because it “symbolizes a
special bill... which die President signed,” and he has self-assessed the medal to be worth $20
billion. Compl. Ex, B at 78-79.
The provisions of law upon which Mr. Baptiehon relies pertain to the Medal for Merit,
not the Medal of Merit. Because he could not have received the Medal for Merit, Mr.
Baptichon’s reliance on various statutes and regulations pertaining to that award are unavailing.
In any event, however, die Medal for Merit statutes and regulations are not money-mandating.
That Congress “authorized to be appropriated ... such sums as may be necessary for the purpose
of carrying out the provisions of’ the Act of July 20,1942, 56 Stat. at 663, is of no moment. As
has been explained to Mr. Baptiehon previously, neither this statute nor Executive Order 9857A
mandates any form of compensation. Thus, even if he had received the Medal for Merit, Mr.
Baptiehon is not entitled to money for that award.
Further, Mr. Baptiehon does not identify any statutes or regulations pertaining to the
Medal of Merit awards that he allegedly received from Presidents Reagan and George W. Bush,
and the court is not aware of any. Of course, he cannot do so. The Medal of Merit represents an
inducement used by a political campaign to attract contributions, not recognition of a debt owed
by the federal government to specific individuals). See, e.g.. Compl. Ex. B at 29 (remarking
that he received the 1991 Medal of Merit “for [his] political and financial support during
[President George H.W. Bush’s] electoral campaign”). Further, President George W, Bush’s
June 4,2004 acknowledgement of a “deep debt” owed to Mr. Baptiehon is of no moment with
respect to this lawsuit. As Mr. Baptiehon correctly notes, President George W. Bush never
referenced the monetary value of that supposed debt. That is because the debt was one “of
gratitude”—not money. Mr. Baptichon’s entire theory of the case rests on the idea that because
President George W. Bush did not assign a monetary value to the Medal of Merit, he himself can
assign a monetary value of his choosing that he can then exact from the federal government.
Such an argument is patently frivolous. To the extent that the Medal of Merit has a monetary
value, it can only be realized in the marketplace. See Compl. Ex. B at ii (observing that the
Medal of Merit is available online via websites such as Ebay).
Because there is no source of law mandating compensation for either the Medal for Merit
or tire Medal of Merit, the Court of Federal Claims has no subject-matter jurisdiction over any
such claims. To the extent that the court has such jurisdiction, Mr. Baptiehon fails to state a
plausible claim for relief because the statutes upon which he relies pertain to the Medal for
Merit, which he could not have received.

-8-

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 9 of 12

C. The Doctrine of Issue Preclusion Bars Mr. Baptichon’s Medal of Merit Claim
In any event, the court lacks jurisdiction to consider Mr. Baptichon’s claim for monetary
compensation for his Medal of Merit under the doctrine of issue preclusion.3 Under this
doctrine, a party is foreclosed from relitigating an issue that has already been decided. Taylor v.
Sturgell 553 U.S. 880, 892 (2008). The doctrine applies “even if the issue recurs in the context
of a different claim,” idu and thus it “prevent[s] parties from ‘getting two bites at tire apple’
through re-litigating rather than appealing a decision through the appropriate channels,” Lowe v.
United States. 79 Fed. Cl. 218,227 (2007). Four elements must be satisfied to establish issue
preclusion:
(1) an issue is identical to one decided in the first action;
(2) the issue was actually litigated in the first action;
(3) the resolution of the issue was essential to a final judgment in
the first action; and
(4) the party defending against the issue had a full and fair
opportunity to litigate the issue in the first action,
Shell Petroleum. Inc, v. United States. 319 F.3d 1334, 1338 (Fed. Cir. 2014).
Jurisdictional determinations can be proper subjects for the application of the doctrine of
issue preclusion. Chisolm v. United States. 82 Fed. Cl. 185,195 (2008) C‘[A]n issue that would
otherwise fall within a first court’s jurisdiction may be decided by that court with preclusive
effect for subsequent courts—even when the first court decides, as a consequence, that it lacks
jurisdiction.”). However, an adverse jurisdictional determination will not have a preclusive
effect if the jurisdictional defect has been subsequently cured. Lowe. 79 Fed. Cl. at 229-30. If
no such cure has been accomplished, and the elements of issue preclusion have otherwise been
established, the court must dismiss the precluded claim for lack of jurisdiction. 14. at 227.
In the instant case, all four elements for establishing issue preclusion are present First,
the issue of whether the Medal for Merit statutes and regulations are money-mandating is
“identical” to the issue decided in Mr. Baptichon’s 2008 case in the Court of Federal Claims and
2009 appeal to the Federal Circuit'. Second, that issue was “actually litigated” in the prior action
because it was the subject of a contested motion to dismiss before the Court of Federal Claims
and a contested appeal before the Federal Circuit. Third, the resolution of that issue was
“essential” to the final earlier judgment because it was the central issue that was contested;.
indeed, the trial court dismissed the case for lack of subject-matter jurisdiction based upon its
conclusion that tire Medal for Merit statutes and regulations were not money-mandating, and the
3 Issue preclusion is also known as collateral estoppel. Allen v. McCurry. 440 U.S. 90,
94 n.5 (1980). This is distinct from, albeit related to, the concept of claim preclusion, which is
also known as res judicata. Id.
-9-

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 10 of 12

Federal Circuit affirmed the dismissal on the same basis. Fourth, Mr. Baptichon was a party to
both the earlier and the instant litigation since he was the plaintiff in both cases; he had a “full
and fair opportunity” to litigate the issue previously as it was the subject of two written decisions
following full briefing. Finally, Mr. Baptichon has not cured the jurisdictional defect that was
present in his earlier case because he relies on the same sources of law as purportedly being
money-mandating that he did previously.
Therefore, under the doctrine of issue preclusion, this court lacks jurisdiction to consider
Mr. Baptichon’s claim for money damages to the extent that his claim relies on the Medal for
Merit statutes and regulations as money-mandating sources of law.
D. The Court of Federal Claims Lacks Jurisdiction Over Mr. Baptichon’s Tort Claims
In addition, the Court of Federal Claims lacks jurisdiction to entertain claims based on
alleged tortious conduct. 28U.S.Cr§ 1491fa)n): Rick’s Mushroom Serv.. Inc, v. United States.
521 F.3d 1338, 1343 (Fed. Cir. 2008). Mr. Baptichon’s claims of intentional infliction of
emotional distress, negligence, and fraud sound in tort.4 See, e.g,. Brestle v. United States. 139
Fed. Cl. 95,107 (2018) (intentional infliction of emotional distress); Lawrence Battelle. Inc, v.
United States. 117 Fed. Cl. 579,585 (2014) (negligence and fraud). Further, Mr, Baptichon’s
“moral turpitude” claim is, at best, a tort claim. See Moral turpitude. Black’s Law Dictionary
(11th ed. 2019) (defining “moral turpitude” as “[cjonduct that is contrary to justice, honesty, or
morality” or “an act that demonstrates depravity”).
Under the Federal Tort Claims Act, 28 U.S.C. §§ 1346(b)(1), 2671-2680, jurisdiction
over tort claims against the United States lies exclusively in federal district courts. U.S. Marine.
Inc, v. United States. 722 F.3d 1360, 1365-66 (Fed. Cir. 2013). The Court of Federal Claims is
not a federal district court Ledford v. United States. 297 F.3d 1378,1382 (Fed. Cir. 2002); see
also Liahtfoot v. Cendant Mortg. Corp.. 137 S. Ct. 553, 563 (2017) (distinguishing between the
“Court of Federal Claims” and “federal district courts”). Therefore, “[wjhere the adjudication of
a type of claim has been granted to the district courts exclusively, [the Court of Federal Claims]
has no jurisdiction to hear the case and must dismiss the matter.” Ross v. United States. 122 Fed.
Cl. 343, 348 (2015).
Furthermore, Mr. Baptichon’s fraud claim is “completely devoid of merit as not to
involve a federal controversy.” Moden. 404 F.3d at 1341. As such, it is frivolous and thus fails
to invoke this court’s—or any court’s—subject-matter jurisdiction. Id, at 1340-41. As noted
above, the Medal of Merit incentive represents a garden-variety inducement by a political
campaign. It does not come anywhere near the level of actionable fraud. Mr. Baptichon’s
negligence and intentional infliction of emotional distress claims are also frivolous because they
"rise to the level of the irrational or die wholly incredible,” Denton, 504 U.S. at 33, even under a
4 To the extent that the fraud alleged by Mr. Baptichon can be construed as a criminal
act, the Court of Federal Claims similarly lacks jurisdiction. See Hufford v. United, States, 87
Fed. Cl. 696,702 (2009) (collecting cases).
-10-

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 11 of 12

liberal construction over the complaint. Finally, the Court of Federal Claims “has no jurisdiction
to adjudicate general claims of moral deficiencies.” Baptichon. 342 F. App’x at 617.
In sum, the Court of Federal Claims lacks subject-matter jurisdiction to consider Mr.
Baptichon5 s intentional infliction of emotional distress, moral turpitude, negligence, and fraud
claims.
E. Mr. Baptichon’s Claims Are Time-Barred
Even if this court otherwise had jurisdiction to entertain any of Mr. Baptichon’s claims,
they are barred by tire six-year statute of limitations generally applicable in the Court of Federal
Claims. &gg 28 U.S;C. § 2501; His claims accrued no later than October 24, 2004, when he
unsuccessfully attempted to cash in his Medal of Merit by delivering it to Secretary Powell. By
that time, if not beforehand, Mr. Baptichon was (or should have been) fully aware that the
federal government was not going to compensate him monetarily for his Medal of Merit.
Therefore, the six-year statute of limitations imposed by 28 U.S.C. § 2501 expired on October
24,2010. Because Mr. Baptichon did not file the instant complaint until August 19, 2019, the
court lacks jurisdiction to consider his claims.
IV. IN FORMA PAUPERIS APPLICATION
To proceed with a civil action in this court, a plaintiff must either pay $400.00 in fees—a
$350.00 filing fee plus a $50.00 administrative fee—or request authorization to proceed in forma
pauperis without the prepayment of fees.5 See 28 U.S.C. §§ 1915, 1926; RCFC 77.1(c); see also
Waltner v. United States. 93 Fed. Cl. 139,141 n.2 (2010) (concluding that 28 U.S.C.
§ 1915(a)(1) applies to both prisoners and nonprisoners alike). Plaintiffs wishing to proceed in
forma Pauperis must submit an affidavit that (1) lists all of their assets, (2) declares that they are
unable to pay the fees or give the security, and (3) states the nature of the action and their belief
that they are entitled to redress.6 28 U.S.C. § 1915(a)(1). Evaluation of a plaintiff s ability to
pay is “left to the discretion of the presiding judge, based on the information submitted by the
plaintiff.” Alston-Buliock v.United States. 122 Fed. Cl. 38, 45 (2015).

5 While the Court of Federal Claims is not generally considered to be a “court of the
United States” within the meaning of title 28 of the United States Code, the court has jurisdiction
to grant or deny applications to proceed in forma pauperis. See 28 U.S.C. § 2503(d) (deeming
the Court of Federal Claims to be a “court of the United States” for purposes of 28 U.S.C.
§ 1915).
6 For the convenience of litigants, the Court of Federal Claims provides an “Application
to Proceed In Forma Pauperis” that, if properly completed, serves as the required affidavit. The
application is available on the court’s website.
-11-

Case l:19-cv-01241-MMS Document 6 Filed 09/23/19 Page 12 of 12

.r

Mr. Baptichon filed, concurrent with his complaint, an application to proceed in forma
pauperis. His application is deficient in two important respects. First, he provides income
information for the 2018 calendar year, rather than the twelve months immediately preceding the
.filing of his complaint Second, he provides no information regarding future expected earnings.
Accordingly, Mr. Baptichon has not provided sufficient information for the court to determine
his ability to pay. Nevertheless, given that Mr, Baptichon does not advance any cognizable
claims, the court exercises its discretion to grant his application and waive the prepayment of his
filing fee for the limited purpose of determining this court’s subject-matter jurisdiction.
V. CONCLUSION
The Court of Federal Claims lacks subject-matter jurisdiction to consider Mr.
Baptichpn’s claims. To the extent that the court has such jurisdiction, Mr. Baptichon fails to
state a claim upon which this court can grant relief.
Accordingly, Mr. Baptiehon’s complaint is DISMISSED WITHOUT PREJUDICE for
lack of subject-matter jurisdiction. No costs. The clerk is directed to enter judgment
accordingly.
In addition, the court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that any appeal from
this order would not be taken in good faith. Mr. Baptichon’s claims are clearly beyond the
subject-matter jurisdiction of this icourt, and he has already received two written decisions (prior
to this one) regarding the claims he now advances.
IT IS SO ORDERED.

XACU

MARGARET M. SWEE
Chief Juage
\

-12-

Case l:19-cv-01241-MMS Documents Filed 09/26/19 Page 1 of 1

in

Court nijfcfiEratCltiims
S

No. 19-1241 C
Filed: .September 26, 2019
•I FAN DUFORT BAPTICHON

v.
JUDGMENT
UNITED STATES

Pursuant to the court's Opinion and Order, ii led September 23,2919,
I i IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that plaintiff s
complaint is dismissed.; without prejudice, fob faek of subject-matter jurisdiciion. tSlo costs.
Lisa 1.. Reyes
Clerk of Court
By:

Deputy Clerk
*

SQTit As to appeal to the United Stales Court of Appeals for the Federal Ciretffo 60 days fount
this date, see RCFC 58,1, re number of copies and listing of all alainti nk Filing fee is §505.00.

I

United States Court of Appeals for the Federal Circuit
2009-5071
JEAN DUFORT BAPTICHON
Plaintiff-Appellant,
v.
UNITED STATESr i
Defendant-Appellee.

Judgment
ON APPEAL from the

United States Court of Federal Claims

in CASE NO(S).

08-CV-641.

This CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
AFFIRMED.

ENTERED BY ORDER OF THE COURT

DATED

AUG - 7 2009
Jan Horbaly, Clerk

ISSIIFO AS A MANDATE: SB* 2 8 2009

APPENDIX (ii)

B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JEAN DUFORT BAPTICHON,

Cleric, US. District and
Bankruptcy Courts

)
)

Plaintiff,

)

■

)

v.

)

Civil Action No. 19-3043 (UNA)

)

UNITED STATES, et al.,
Defendants.

)
)
)

MEMORANDUM OPINION
This matter is before the Court on the plaintiffs application to proceed in forma pauperis
and Us pro se complaint. Plaintiff alleges that former President George H.W. Bush awarded him
a Presidential Medal of Merit in 1991. Compl. 17. Plaintiff believes the medal to be an
“instrunient[] of deception used by the Defendant to induce false pride in the Plaintiff, boost the
Plaintiff s ego in order to exact more financial contributions from [him] and to induce [his]
whole hearted participation in the Defendant’s so called campaigns for the Defendant s own
benefits, and that in reality, the Plaintiff personally did not matter to the Defendant.” Id. K 10.
Distressed by this realization, plaintiff alleges that he delved into the meaning of each symbol on
the medal, id. ^ 11, and wrote a book “to help shed some light on all other values pertaining to
such [medal],” id. ^ 12. Based on his own findings and assessment of the medal’s value, see id.,
Ex. B at 76-79, plaintiff demands an award of $20 billion, id. II16.
“[A] complaint, containing as it does both factual allegations and legal conclusions, is
frivolous where it lacks an arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S.
319,325 (1989). The Court may dismiss a complaint it deems frivolous, Denton v. Hernandez,
504 U.S. 25, 33 (1992), and such finding is appropriate when the facts alleged are irrational or

wholly Incredible* /W., or if its legal argumentsare impious, cf.Andersv. Slate of California,
386 O.S.738, 744 (1967). Plaintiffacknowiedges that there is no statutory basis for his claim,,
see Compl. 15, as theiJnited S tates Court of Federal Claims informed him vvh.en.it rejected his
prior claims of entitlement to tire monetary value of the medal:
This Medal was established by the Act of July 20,1942, ch. 508, 56
Stat. 662,codified eif IQXiS.C. § 11.22. Furthermore, the procedures
for awarding, foe Medal are contained in Executive Order No.
9857Af3 C.Fdfc. 19*43-1948 Comp., p. 646 (May 27,1947). Neither
the Act of July 20,1942, nor Executive Order No.. 98;6’7A, nor any
other statute or regulation establishes a source oflaw that mandates
compensation.
Baptichon v. United States, 85 Fed £1. 754,756 (Fed, Cl, 2009), affd, 342 F. App’x 617 (Fed,
Cir. 2009) (per curiam); see Baptidhm v. United States, No, 19-1241C, 2019 WL 4619935, at *7
(Fed. Cl. Sept. 23,201,9).
Hie Court wilt grant plaintiff’s application to proceed informa pauperis. Further,
because the complaint’s factual allegations are baseless and its legal-theories are meritless, the
Court: will dismiss foecomplaint as frivolous, See Neitzke, 490 U.S. at 327 (noting judges’
“authority to dismiss a,.claim based on an indisputably meritless legal theory [and its] unusual
power to pierce the veil of the complaint’s factual allegations and dismiss those claims whose
factual contentions are clearly baseless”). An Order consistent with this Memorandum Opinion
is issued separately.
DATE: November

f<r , 2019
TANYAS. CHUTKAN
UnitedStates District Judge

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JEAN DUFORT BAPTICHON,
Plaintiff,

mf 2.0.2019
Clerk, U.S. District and
Bankruptcy Courts

)
)
)
)

v.

)
)

UNITED STATES, etal.,

Civil Action No. 19-3043 (UNA)

)

Defendants.

)
)

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is hereby
ORDERED that the plaintiffs application to proceed in forma pauperises GRANTED;
and it is
FURTHER ORDERED the complaint and this civil action are DISMISSED.
This is a final appealable Order. See Fed. R. App. P. 4(a).
SO ORDERED.
DATE: November /.S

2019
TANYAS. CHUTKAN
United States District Judge

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JEAN DUFORT BAPTICHON,
Plaintiff,
v.
UNITED STATES, etal.,
Defendants.

)
)
)
)
)

Cierk, U.S. District and
Bankruptcy Courts

Civil Action No. 19-3043 (UNA)

)
)
)
)

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is hereby
ORDERED that the plaintiffs application to proceed in forma pauperis is GRANTED;
and it is
FURTHER ORDERED the complaint and this civil action are DISMISSED.
This is a final appealable Order. See Fed. R. App. P. 4(a).
SO ORDERED.
DATE: November / S

2019
TAN-MS... CHUTKAN
UniteoStates District Judge

APPENDIX (iii)

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JEAN DUFORT BAPTICHON,
Plaintiff,
.

v.
UNITED STATES, etal,
Defendants.

ag&Btsm

)
)
)
)

)

PILED
mnm

Civil Action No. 19-3043 (UNA)

.

)
)
)
>

ORDER
The Court previously dismissed the plaintiffs complaint as frivolous. He now asks the
Court to reconsider i ts ruling pursuant to Federal Rule of Civil Procedure 59. “A Rule S9(e)
motion is discretionary and need not be granted unless the district co\Mgnids:dfrhtThere-i$ ah
‘ intervening change of controlling law, the availability of new evidence, or the need' to cprrect a
clear error or prevent manifest injustice.’” Firestone v. Firestone, 76 F.3d 1205,1208 (D.C. Ctr.
1996) (citation and internal quotation marks omitted). None of these circumstances is evident.
Accordingly, it is hereby
ORDERED that the plaintiff s motion to alter or amend judgment. [5] is DENIED, and his
Motion for Permission for Electronic Case Filing [6] and Application to Conduct Audio-Video
Coverage [7] are DENIED as moot
SO ORDERED,
DATE: January

. 2020
AM1TP.
eta
United States District Judge

APPENDIX (iv)

QInurt of ^Appeals
For The District of Columbia Circuit

No. 20-5031

September Term, 2019
1:19-cv-03043-UNA
Filed On: June 23, 2020

Jean Dufort Baptichon,
Appellant
v.
United States of America and National
Republican Party,
Appellees
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
BEFORE:

Wilkins and Rao, Circuit Judges, and Sentelle, Senior Circuit Judge
JUDGMENT

This appeal was considered on the record from the United States District Court
for the District of Columbia and on the brief filed by appellant. See Fed. R. App. P
34(a¥2): D.C. Cir. Rule 340). It is
—ORDERED AND ADJUDGED that the district court's orders filed_November 20,
2019, and January 30, 2020, be affirmed. The district court properly dismissed the
case without prejudice on the ground that appellant’s allegations are frivolous. See
Neitzke v. Williams, 490 U.S. 319. 325 (1989) (“[A] complaint... is frivolous where it
lacks an arguable basis either in law or in fact.’’). Moreover, appellant has not
demonstrated that the district court abused its discretion in denying his motion to alter
or amend the judgment. See, e^, Firestone v. Firestone. 76 F.3d 1205. 1208 (D.C.
Cir. 1996) (per curiam).

P*utefr States fflourt of appeals
For The District of Columbia Circuit

No. 20-5031

September Term, 2019

Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearina en banc. See Fed R Ann
P. 41/bi: D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

Is/
Daniel J. Reidy
Deputy Clerk

Additional material
from this filing is
available in the
Clerk's Office.

